CERTIFICATE OF SERVICE
I hereby attest that a true and correct copy of the document PETITION FOR WRIT OF
CERTIORARI was sent via scanned e-mail sent to Michael Lynch and Tracy Ashmore with'
Robinson, Waters, and O'Dorisio, P.C. on bejialf of Defendant Jerry Moore and Linda
Moore, addressed as follows, sent this /gfiday of November, 2020.
Michael Lynch
mlvnch@rwolaw.com
Tracy Ashmore
tashmore@rwolaw.com
Sincerely,

\.

CERTIFICATE OF COMPLIANCE
This is to certify that the above prepared Petition For Writ of Certiorari contains 652 words
as noted by Word document.
JLespectfuIly,

Mark Halper

